NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


                       R EVIEW OF THE
            NATIONAL CREDIT UNION ADMINISTRATION’S
                 MEMBER COMPLAINT PROCESS


                Report #OIG-03-08 September 25, 2003




                           Herbert S. Yolles
                           Inspector General


 Released By:                                  Auditor-in-Charge:


 William A. DeSarno                            Dwight B. Engelrup, CPA
 Deputy Inspector General for Audits           Senior Auditor
                             TABLE OF CONTENTS


                                                                             Page

Executive Summary                                                             1

Background                                                                    4
      Member Inquiry and Complaint Process                                    4
      Survey Plan                                                             5

Survey Results                                                                6
      Legal Basis for Handling Member Complaints                              6
      How NCUA Regional Offices Process Inquiries and Complaints              7
      How Other Federal Financial Institution Regulators Process Inquiries   14
         and Complaints
                                      EXECUTIVE SUMMARY


The National Credit Union Administration’s (NCUA) vision1 is to ensure the credit union
movement can safely provide financial services to all segments of American society. Working in
tandem with this vision is the NCUA’s mission to foster the safety and soundness of federally
insured credit unions and to better enable the credit union community to extend availability of
financial services to all who seek such service. NCUA does this by managing the share
insurance fund in an efficient and prudent manner, and establishing a regulatory environment
that encourages innovation, flexibility, and continued focus on attracting new members and
improving financial service to existing members. The manner in which the NCUA responds to
inquiries and complaints by credit union members and the public plays a part in fulfilling the
agency’s vision and mission.

Congress has charged NCUA with enforcing a broad range of federal consumer laws and
regulations in federally chartered credit unions and, in certain instances, state-chartered credit
unions. The NCUA is also required to report to Congress and other federal agencies on credit
unions’ compliance with certain of these laws and regulations. The agency regularly receives
inquiries and complaints regarding consumer compliance issues from the public and credit union
members throughout the nation. In addition, the agency receives inquiries and complaints on
subjects other than federal consumer laws and regulations. During 2002, NCUA received
approximately 2,000 inquiries and complaints, about half of which alleged violations of
regulations or consumer laws.

We reviewed the NCUA member complaint process in order to: (1) gather information to
determine the appropriate role for the agency; (2) evaluate the current process; and (3) compare
the current process with actions taken by four other federal financial institution regulators in their
handling of inquiries and complaints. We did not verify the validity and reliability of
information provided by either the NCUA or the other federal financial regulators. Accordingly,
our work constitutes a review or survey rather than an audit. The scope of our survey was
calendar year 2002, with work performed from January through April, 2003.

Our survey focused on the credit union member complaint process at the NCUA’s six regions
located in Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Chicago, Illinois; Austin,
Texas; and Concord, California. The comparative portion of our survey looked at complaint
process information obtained from four other federal financial institution regulators: the Office
of the Comptroller of the Currency (OCC); the Federal Deposit Insurance Corporation (FDIC);
the Office of Thrift Supervision (OTS); and the Federal Reserve Board (FRB). Our procedures
included a review of the applicable legal requirements fo r the complaint process; interviews of
appropriate personnel; and a review of policies, procedures, and complaint statistics for the six
NCUA regions and the four other federal financial institution regulators.




1
    NCUA Strategic Plan 2003-2008, Vision, Mission, and Values, page 5.


                                                        1
Current NCUA practice and guidance is for each regional office to respectively handle all
complaints it receives—those alleging regulatory and consumer compliance violations as well as
those that do not. While we identified a statutory requirement for NCUA’s investigation of
alleged violations of Federal consumer laws and regulations, we did not identify a legal authority
requiring NCUA to investigate or track complaints of a non-statutory or non-regulatory nature.
The NCUA’s Office of Examination and Insurance (E&I), has agreed to revise the current
agency Instruction (Instruction 12400.04, Compliance Activities: Complaint Handling and
Documentation of Violations, dated September 5, 2002) for handling member complaints so that
it no longer requires tracking and monitoring of allegations that do not allege regulatory and
consumer compliance violations.

Overall, we found that NCUA’s six regional offices approached the task of handling member
complaints in a serious and responsible manner. The regions understood that all complaints,
according to the then-current Instruction 12400.04, required processing. In this regard, we found
that the respective regions applied the Instruction consistently; recognized the distinction
between complaints alleging regulatory and consumer compliance violations for which NCUA
has enforcement authority and those that do not; and reported and tracked regulatory violations
in a centralized national data base, the Compliance Regulation Violation (CRV) database. With
regard to recording and monitoring non-regulatory complaints and inquiries, the NCUA regions
presently use several different databases.

Because NCUA is not statutorily or otherwise required to commit personnel in a central location
to handle complaints, the agency has not centralized this process, but rather handles it on a
region-by-region basis. Each of the six NCUA regions has approximately one full-time
equivalent (FTE) position, with some regions devoting more resources than others depending on
the work load, dedicated to the member complaint process. The amount of resources devoted to
the process ranks NCUA in the middle of the federal regulators regarding complaints handled per
FTE.

The OCC, FDIC, OTS, and FRB are required by statute and executive order to centralize
complaint handling. 2 Moreover, those statutes require the relevant agency to report certain
information regarding complaint handling statistics to the Congress. As a result, these four
regulators have a central office presence to monitor and evaluate the process and a centralized
comp uter system to monitor and report statistical data.

We concluded during our survey that the NCUA regions, using their individual systems, are
effective in identifying, processing, and monitoring non-regulatory complaints and that, overall,
the process is working reasonably well in meeting credit union members’ needs in an effective
and timely manner.

Our report contains three recommendations for improving the national member complaint
process. The first recommendation emphasizes the continued handling of regulatory or
consumer compliance complaints by NCUA, while referring non-regulatory complaints to the
appropriate credit union for processing. As mentioned above, NCUA’s E&I office has prepared

2
 The Magnuson-Moss Warranty Act (Federal Trade Commission Improvement Act of 1975, 15 U.S.C. § 57a; 15
U.S.C.A. §§ 2301, et. seq.); and E.O. 12160 (September 26, 1979).


                                                   2
a draft revision to Instruction 12400.04 that addresses this recommendation. The second
recommendation addresses updating regional procedures to conform to and comply with the
revised national instruction. The third recommendation is that regional office procedures be
revised to ensure that copies of all complaints are forwarded to the appropriate district examiner
for supervision planning purposes.

The NCUA Office of General Counsel (OGC), and the NCUA Office of Examination and
Insurance (E&I) commented on our draft report. Both OGC and E&I concurred with the report
recommendations.




                                                 3
                                       BACKGROUND

 Member Inquiry and             Congress charged the NCUA with enforcing a broad range of federal
 Complaint Process              consumer laws and regulations in federally chartered credit unions
                                and, in certain instances, in state-chartered credit unions. NCUA is
also required to report to Congress and other federal agencies on credit unions’ compliance with
certain of these laws and regulations. NCUA Instruction 12400.04 describes procedures for
addressing complaints and documenting credit unions’ violations of consumer laws and
regulations to facilitate this reporting responsibility.

If a regional office determines that a credit union has violated an applicable federal regulation,
the violation is documented in the CRV database. Violations may be detected during the
complaint handling process or the NCUA examination and supervision process.

Instruction 12400.04 provides that NCUA’s role in the investigation of a complaint that does not
allege a specific regulatory or consumer compliance violation is to attempt to facilitate
communication between the member and the credit union. Nevertheless, the Instruction
emphasizes that the individual credit union is responsible for addressing and resolving such
allegations. With regard to complaints against state-chartered credit unions that do not fall
within NCUA’s enforcement authority, the Instruction indicates that the regional office should
routinely refer them to the appropriate agency or State Supervisory Authority (SSA).

As mentioned above, each NCUA regional director establishes procedures to ensure that
complaints and inquiries from the public are handled promptly and courteously by regional
office staff. Persons who call the regional office are encouraged to first contact appropriate
credit union officials to resolve their inquiry or complaint. Credit union officials should
normally be able to resolve their own member complaints. When appropriate, NCUA
encourages callers to send a letter to the credit union. When those efforts have been tried, but
have failed to resolve the problem, NCUA requests that the caller send a letter to the regional
office. The letter should specify the nature of the complaint and include copies of any pertinent
documents.

Methods for regional office handling of complaints include the following approaches:
• written response to the complainant based on the information contained in the complaint
   letter;
• written request to the credit union’s board of directors, management, or supervisory
   committee to investigate or review the complaint;
• review of the credit union’s response to the member for adequacy; and /or
• investigation of complaint and written response to complainant by the regional office.




                                                  4
    Survey Plan

Objective
Our objective was to determine NCUA’s appropriate role in the member complaint hand ling
process, and to identify the most efficient and effective means of handling member inquiries and
complaints. We performed our work in accordance with gove rnment auditing standards with the
exception of determining the validity and reliability of information provided by both the NCUA
and the other federal financial regulators.

Scope
Our survey scope included:
• reviewing the legal requirements for the NCUA complaint handling process;
• reviewing the respective complaint handling role s and processes for the four other federal
   financial institution regulators and comparing them to NCUA’s; and
• reviewing and comparing the current complaint handling procedures for all six NCUA
   regions.

The period of our review was calendar year 2002.

Survey Procedures and Methodology
Our work included the following procedures:

•    Legal Requirements
     1. Obtained and reviewed relevant laws and regulations
     2. Obtained input from NCUA Office of General Counsel (OGC)

•    Federal Financial Regulators Input
     1. Contacted other federal financial regulators
     2. Obtained input from regulators regarding complaint handling:
           a. Legal requirements and position or appropriate role
           b. Process – who, what, when, where
           c. Numbers and types of complaints
           d. Resources used in process
           e. Time frames for completion of process
           f. Internal controls and monitoring of process

•    Procedures for Six NCUA Regions
     1. Obtained and reviewed policies and procedures and developed comparison
     2. Obtained available complaint statistics (types, numbers, and completion times for 2002)
     3. Determined resources used (types, hours, and percentages for regulatory and non-
        regulatory complaints)




                                                5
                                    SURVEY RESULTS

                                           The Magnuson-Moss Warranty Act (Act) was passed
 LEGAL BASIS FOR HANDLING                  by Congress in 1975 and called for the establishment
 MEMBER COMPLAINTS                         of consumer complaint divisions at the banking
agencies. The Act invested these divisions with the responsibility to take appropriate action on
complaints about unfair or deceptive practices by the banks. While the Act specifically excluded
NCUA from the requirement to establish a consumer affairs division to process complaints, it did
direct NCUA to:

       [p]rescribe regulations to carry out the purposes of the [Act], including regulations
       defining with specificity such unfair or deceptive practices, and containing requirements
       prescribed for the purpose of preventing such acts or practices.

15 U.S.C. § 57a(f)(1). The responsibility of banking agencies to establish centralized consumer
complaint programs was further delineated in Executive Orders 12160 (September 26, 1979) and
E.O. 12265 (January 15, 1981). Those executive orders, which specifically exempted
independent regulatory agencies, including NCUA, required the banking agencies to maintain
consumer affairs divisions to receive, investigate, and take actions upon consumer complaints, as
well as integrate analyses of complaints into the development of respective agency policy.

In lieu of the statutory guidelines the OCC, FDIC, OTS, and FRB relied upon in constituting
their consumer affairs divisions, NCUA drafted Instruction 12400.04. The instruction, as
discussed above, set forth NCUA’s policy on and procedures for processing complaints against
credit unions and reporting violations of consumer compliance laws and regulations. In this
regard, the instruction referenced a list of federal consumer laws and regulations applicable to
credit unions and the corresponding authorities. However, our legal review and analysis
concluded that while Instruction 12400.04 prescribed procedures for processing of complaints
related to consumer compliance violations, it was unclear whether the instruction also
encompassed complaints that did not pertain to consumer laws or regulations.

During a June 2003 meeting with NCUA’s Office of General Counsel (OGC) and NCUA’s
Office of Examination and Insurance (E&I), we shared the results of our legal research, and E&I
agreed to revise the current agency Instruction for handling member complaints so that it no
longer requires tracking and monitoring of allegations that do not allege regulatory and consumer
compliance violations.

CONCLUSIONS
While our legal analysis determined that NCUA’s consumer complaint program need only
address complaints that allege a violation of federal consumer laws and regulations, we found
that NCUA’s current practice and guidance, as set forth in Instruction 12400.04, is to process all
complaints received—regulatory or non-regulatory alike-- in basically the same manner.




                                                6
RECOMMENDATION 1
To maximize the efficient use of limited resources, the NCUA should revise Instruction 12400.4
to emphasize the agency’s responsibility to process regulatory or consumer compliance
complaints. The revised instruction should also clarify that regional offices are not required to
process complaints that do not allege regulatory or consumer compliance violations. Rather,
regional offices should forward these complaints to the appropriate credit union for resolution.

OIG Note: On June 19, 2003, E&I provided to the OIG a proposed revision to Instruction
12400.4 addressing the issues in recommendation 1. The OIG concurred with the proposed
revisions.


                                             We contacted all six NCUA regions and obtained
 HOW NCUA REGIONAL                           information from them regarding regional policies
 OFFICES PROCESS INQUIRIES                   and procedures for handling complaint processing,
 AND COMPLAINTS                              resources used, and results of the process.

NCUA Survey Results on Policies and Procedures

NCUA Member Complaint Policies and Procedures
The regions responded that they understood that the NCUA Board wanted the regions to process
inquiries and member complaints in the following manner:

   •   Process all complaints received in accordance with the provisions of NCUA Instruction
       12400.04, (September 5, 2002);
   •   Respond to complaints following the general guidelines provided in the national
       instruction and supplemented by discretionary regional guidance;
   •   Process complaints in a professional, accurate, courteous, prompt and timely manner with
       an emphasis on customer service; and
   •   Investigate member concerns, and as appropriate refer matters to the Supervisory
       Committee (credit union audit committee).

Non-regulatory and Non-consumer Compliance Related Complaints
In response to our question regarding how they thought the agency should be handling inquiries
and complaints that are non-regulatory in nature, the regions provided widely varying answers.
    • The agency should provide an avenue for members of federally chartered credit unions to
        address concerns about their credit union operations.
    • It is important to address complaints concerning legal issues and contracts, since they
        may reveal problems with safety and soundness as well as the legal and regulatory issues.
    • NCUA should at least attempt to steer a complainant in the right direction without
        creating an administrative burden.
    • Because the agency has no jurisdiction or enforcement authority in resolving disputes
        between members and the credit unions, members should settle disputes in a court of law
        if the member remains dissatisfied with the credit union’s resolution.
    • Credit union members should look to NCUA to assist them in resolving issues and
        complaints not associated with legal or regulatory requirements.


                                                7
   •   The agency’s role should be limited to acting as a liaison between the credit union and
       the member.
   •   The agency should not become so involved in the complaints that credit unions
       feel they should bend/change their policies and procedures just to “stay out of
       trouble” with their regulator.
   •   Even if a complaint does not involve an issue we regulate, agency involvement usually
       helps the member get a response from the credit union.

Regional Complaint Instructions and Procedures
We obtained for review copies of the regional instructions and complaint handling procedures.
Our review indicated that the regional guidance followed the national instruction in material
aspects while allowing for individual regional management to exercise discretion in establishing
specific procedures and the necessary resources to use.

In four of the six regions the primary responsibility for handling and tracking member inquiries
and complaints resided in the Division of Supervision (DOS). In the remaining two regions, the
primary responsibility was in the Division of Insurance (DOI). We found that in all regions there
was some overlap between the DOS and DOI in performing the complaint handling work
depending on the type of complaint and any necessary follow- up.

Summary
In summary, regarding policies and procedures, we found that the regions:
    • Used as primary guidance NCUA Instruction 12400.04;
    • Understood that they were to handle all complaints received concerning NCUA
      regulatory enforcement (consumer compliance) as well as non-regulatory complaints (all
      other complaints);
    • Used regional discretion in developing complaint handling procedures;
    • Followed the national instruction in all material respects;
    • Handled complaints in an accurate, professional, timely and courteous manner;
    • Encouraged complainants to attempt to resolve complaints through their respective credit
      unions; and
    • Involved the credit union supervisory committee to assist in resolving the complaint.

CONCLUSIONS
We concluded that the six regions take seriously the task of handling member complaints.
Overall, the national guidance (Instruction 12400.04) in effect at the time of the survey provided
consistent direction for handling and reporting complaints alleging violations within NCUA’s
enforcement authority, such as consumer compliance violations. Moreover, the regions
exercised the discretion available to them to develop specific regional guidance to implement
their respective complaint handling processes.

The regions understood, pursuant the Instruction 12400.04, their responsibility to process all
complaints in the same manner. There appeared to be consistent regional guidance;
understanding and implementatio n of the national Instruction for complaints alleging regulatory
and consumer compliance violations for which NCUA has enforcement authority; and the



                                                8
reporting and tracking of those complaints in the national data base. However, there were
differences in how the regions thought the agency should handle non-regulatory complaints

RECOMMENDATION 2
To ensure a consistent agency approach in the handling of member complaints that do not allege
a regulatory violation, E&I should ensure that regional policies and procedures are revised as
appropriate to conform to the revised Instruction 12400.04.

NCUA Survey Results for Processing Inquiries and Complaints

2002 Inquiries/Complaints Received
The following information was received from the six NCUA regions regarding (1) regulatory
complaints alleging consumer compliance violations; (2) non-regulatory complaints; and
(3) non-classified complaints received during 2002:

       •   Regulatory complaints                       900 (1)
       •   Non-Regulatory complaints                   700
       •   Non-classified complaints                   400 (2)
              Total:                                 2,000

       Notes:   (1) Includes one region that tracks all complaints as regulatory complaints
                (2) One region does not track by regulatory and non-regulatory categories


Regulatory complaints identified by regional management were related to:
• Equal Credit Opportunity
• Expedited Funds Availability
• Electronic Funds Transfer
• Fair Credit Practice
• Fair Credit Reporting
• Fair Debt Collections Practices
• Collection of Checks & Other Items by Federal Reserve Banks & Funds Transfer Through
   FedWire
• Privacy of Consumer Financial Information
• Real Estate Settlement Procedures
• Truth in Savings
• Truth in Lending
• Bylaw and field of membership disputes
• Prior liquidations
• Advertising practices

Non-regulatory and non-classified complaints identified by regional management were related
to:
• Requests for credit reports or corrections to credit reports
• Disputes over facts
• Complaints about financial institutions not regulated by NCUA
• Personnel reactions/behaviors (financial institution)


                                                           9
•   Contractual issues not related to initial disclosure requirements

Trends in Complaints/Inquiries
The management of the six regions indicated the following complaint and inquiry trends:
       • 3 regions – Relatively constant since 2000
       • 2 regions – Slight decrease since 2000
       • 1 region – Increase or high since 2000

Causes noted for the complaint trend changes included:
       • An increasing number of complaints are received electronically (e- mail).
       • Encouraging members to work with their credit union has reduced written complaints.
       • More familiarity with NCUA can cause increased complaint filing.
       • Better public awareness of consumer compliance issues can cause increased
          complaint filing.

Average Complaint Turnaround Time
NCUA guidance does not specify complaint resolution time frames other than requiring that an
acknowledgment letter will be sent to a complainant who has sent a complaint letter to the
NCUA Board Members or to the Congress. In this instance, the regional office will send the
acknowledgment letter to the complainant within 7 days of the receipt of the complaint. The
letter will include a general time frame in which the complainant can expect a response.
Generally, complaints will be resolved within 60 days from the date a written complaint is
received by the regional office.

For the 5 regions that reported turnaround time, the average time from receipt of the complaint to
resolution was 34 days for 2002.

For comparison purposes, the table below shows the turnaround time for NCUA as well as the
other four federal financial institution regulators.


                             Average Complaint Turnaround Time
                            Agency                                Days
       Federal Deposit Insurance Corporation (FDIC)    60 days “most complaints”
       Office of Thrift Supervision (OTS)              60 days “policy”
       Federal Reserve Board (FRB)                     60 days “policy”
       Office Comptroller of the Currency (OCC)        60 days “policy”
       National Credit Union Administration (NCUA) 34 days average
       Data received from FDIC, OTS, FRB, NCUA, and for OCC from its web site

Regional Resources
Each NCUA region has one technician who is primarily responsible for handling member
complaints to ensure regional consistency in the process. The technician usually performs
additional other assigned duties. In addition, analysts assist the technician in handling
complaints. Regional management is involved in reviewing actions, providing guidance, and
ensuring quality control. In total, each of the six regions have devoted approximately one full-


                                                  10
time equivalent (FTE) position to the member complaint process, for a total of 6 FTEs agency-
wide.


                  Average NCUA Regional Member Complaint Process FTE




                                   RVI - 1 FTE           RI - 1 FTE




                      RV - 1 FTE                                        RII - 1 FTE




                                   RIV - 1 FTE           RIII - 1 FTE




Regional Monitoring and Tracking Systems
The six NCUA regions use a variety of monitoring tracking systems and reports including:

Regulatory Complaints (allegations of violations of any applicable federal laws or regulations)
• The CRV national database and coding is used when it has been determined that a credit
   union has violated any applicable federal law or regulation. These violations may be
   detected during the complaint handling or examination/supervision process.
Non-Regulatory Complaints (all other complaints/inquiries)
• The regional DOI GENESIS tracking and report system for correspondence and complaint
   processing; and
• Several distinct regional DOS-developed databases that use Access or other systems to track
   correspondence, provide complaint processing, and monitor reports.

In four NCUA regions the member complaint process is handled primarily in DOS, and in the
other two regions the member complaint process is handled primarily in DOI. The various
regional monitoring systems can make it difficult to develop national statistical information.




                                                 11
Summary of the five federal financial institution regulators’ organization and practices
We compared NCUA’s organization and practices with four of the other federal financial
institution regulators identified above and identified notable differences as well as similarities,
including:

•   Central office presence – All except NCUA
    The other regulators’ central offices perform the quality control effort for their respective
    agencies, as well as analysis and follow-up with their respective regions regarding statistics
    and reports. The other regulators also use centralized computer systems to generate
    information and reports for all inquiries and complaints received by the m, and to prepare
    reporting to the Congress as required by the Magnuson-Moss Warranty Act.

•   Regional Office presence – All including NCUA
    All regulators, including NCUA, receive inquiries and complaints at their regional offices.
    Regional office staff perform the main effort in processing inquires and complaints and
    working with their respective financial institutions to ensure operational improvements.

•   Complaints copied to examiners – All including NCUA
    The OCC, FDIC, OTS, and FRB routinely send copies of the complaints to assigned
    examiners to ensure improvement at the respective institutions they regulate. Likewise,
    NCUA Instruction 12400.04 requires that regional offices forward complaints to an assigned
    examiner. Notwithstanding this requireme nt in its national instruction, however, NCUA
    regional guidance does not consistently require that the regions forward copies of all
    individual inquiries and complaints to the district examiner for supervision purposes.

•   Consistent agency-wide coding and tracking of complaints/inquiries – All except NCUA
    The other four federal financial institution regulatory agencies have a single system for
    coding and tracking all complaints. A uniform system is useful in aggregating types of
    complaints and other statistical information required to be reported to the Congress. NCUA,
    however, uses only a single coding system and database for identified regulatory and
    statutory compliance violations. For all other complaints, the NCUA regions use several
    different systems, including the agency-developed DOI GENESIS tracking system and other
    tracking systems developed by the various regions.

CONCLUSIONS

2002 Complaints/Inquiries Received
Approximately 45-50 percent of complaints received by NCUA are regulatory in nature. This
compares to approximately 50 percent of complaints received by the other four regulators.

The regulatory complaints that NCUA received primarily alleged violations of the various
consumer compliance authorities the agency is charged with enforcing. The non-regulatory
complaints NCUA received addressed sundry issues, including contractual matters, requests for
credit reports, and complaints against specific financial institutions.




                                                 12
2002 Trends in Complaints/Inquiries
Trends in complaints and inquiries received by the regions were constant in three regions,
decreased in 2 regions, and increased or remained at a high level in 1 region. Causes of
increasing trends included the increasing use of electronic filing of complaints, greater
familiarity with NCUA and its regulatory function, and a better public awareness of consumer
compliance issues.

Average Complaint Turnaround Time
NCUA national guidance does not specify complaint resolution time frames, other than requir ing
that regional offices send an acknowledgment letter to a complainant who has sent a complaint
letter to the NCUA Board Members and Congress within 7 days of receipt of the complaint.
However, it appeared to us that the agency does take seriously the task of responding to member
complaints in a timely manner.

Generally, complaints are resolved within 60 days from the date a written complaint is received
by the regional office. For 2002, the average turnaround time, from receipt of complaint to
closing the complaint, for the five regions responding was 34 days. The sixth region indicated
that 99 percent of 2002 complaints were resolved within 90 days. NCUA’s performance
compares favorably with the policy and practice of the four other federal regulators to resolve
complaints within 60 days.

Regional Resources and Monitoring
Each of the six NCUA regions has approximately one FTE position assigned to complaint
handling, with some regions devoting more resources than others depending on the work load.
The amount of resources devoted to the process places NCUA with the fewest number of FTEs
overall, and ranks NCUA midway among the other financial regulators regarding complaints
handled per FTE.

Because NCUA is required to report to Congress regarding complaints involving specific
regulatory issues, such as consumer compliance statute violations, the agency has a centralized
database, the CRV, to track and code complaints. No evidence came to our attention during our
survey work that the NCUA system is not performing as required. NCUA is not required by
statute—and does not maintain--a central office complaint handling presence. Alternatively, all
four of the other federal financial institution regulators are required by statute to have a central
office presence for complaint ha ndling. Moreover, they are required to report more information
to the Congress than the NCUA. As a result, the other four regulators have a central office
presence to monitor and evaluate the process and a broader, centralized computer system to
monitor and report statistical data.

At the present time the NCUA regions use several different databases to record and monitor
complaints and inquiries that are non-regulatory/statutory in nature. Nothing came to our
attention during the survey to indicate that the current systems in use are not meeting the
requirements of regional management to identify, process, and monitor the non-regulatory
complaints. Rather, the regions using their own systems are doing an effective job handling and
resolving the complaints received. Overall, it appears to us that the process is working
reasonably well in meeting credit union members’ needs in a reasonable and timely manner.



                                                 13
However, if NCUA is interested in determining and evaluating all of the complaints and
inquiries received by the agency in a consistent manner, it may want to consider establishing a
centralized database and process to obtain and evaluate the information.


RECOMMENDATION 3
For credit union supervision planning purposes, regional office procedures should be revised as
appropriate to ensure that copies of all complaints are forwarded to the appropriate district
examiner.



                                                   For comparative purposes, we obtained
 HOW OTHER FEDERAL FINANCIAL                       information regarding four other federal
 INSTITUTION REGULATORS PROCESS                    financial institution regulators’ complaint
 INQUIRIES AND COMPLAINTS                          processes. The other regulators were the
                                                   OCC, OTS, FDIC and the FRB. With
regard to the OTS, FDIC, and the FRB, we interviewed respective agency officials as well as
reviewed materials provided to us and otherwise available on each agency’s website. With
regard to the OCC, we only reviewed information available from that agency’s web site.

Legal Basis for Complaint/Inquiry Processing
As discussed above, the Magnuson-Moss Warranty Act was passed by Congress in 1975 and
called for the establishment of consumer complaint divisions at the banking agencies. The Act
invested these divisions with the responsibility to take appropriate action on complaints about
unfair or deceptive practices by the banks. The responsibility of banking agencies to establish
centralized consumer complaint programs was further delineated in Executive Orders 12160
(September 26, 1979) and 12265 (January 15, 1981). Those executive orders required the
banking agencies to maintain consumer affairs divisions to receive, investigate, and take actions
upon consumer complaints, as well as integrate analyses of complaints into the development of
respective agency policy.

Screening Complaints and Inquiries
The agencies screen complaints and inquiries as follows:
• Most agencies handle all inquiries and complaints received (agencies do not make a
   judgment whether or not to handle an inquiry or complaint); and
• The agencies send non-regulatory complaints to the appropriate financial institution for
   handling with a letter to the complainant.

Inquiry and Complaint Process
The agencies process inquiries and complaints in the following manner:
• All complaints must be in writing– letter, facsimile copy, or electronic transmission.
• Determination for action office is dependent upon the inquiry or complaint.
• The agencies work on the complaint with the management of the institution.
• Three of the agencies use the same inquiry or complaint codes.
• Two of the agencies use consumer satisfaction surveys.


                                                14
•   The approximate turnaround time for resolution is 60 days.
•   The three agencies we interviewed indicated that complaint information is provided to the
    examiner to use in and improve the examination process.
•   All the agencies have centralized data processing systems for handling and tracking
    complaints.
•   All four agenc ies have a central office presence for complaint handling, reporting and data
    analysis, with the majority of the work and resources located at the regional level in the
    organization.
•   Regulatory complaints represented up to 50 percent of complaints handled in 2002.

Complaint Statistical Information
We obtained the following statistical information for the four financial institution regulators and
NCUA for 2002 regarding the number of complaints and inquiries handled and the approximate
number of FTE positio ns working in the inquiry and complaint process at each regulator.


     REGULATOR   # COMPLAINTS                            FTE     #COMPLAINTS/#FTE
            OCC       (1) 94,000                          (1) 22                  4,273
             OTS           5,000                              12                    417
           NCUA            2,000                               6                    333
            FDIC          15,000                              45                    333
             FRB           5,700                              55                    104
       Note (1): Statistical information provided by OTS, FDIC, and NCUA FRB. Statistical information for OCC
                 obtained from OCC web site (most recent information on web site is for 1999).




CONCLUSION

We found, on the one hand, that the other four federal financial institution regulators are required
by statute to handle all complaints and inquiries received. NCUA, on the other hand, is
statutorily required to act only on those complaints alleging violations covered by the various
consumer compliance regulations and laws. In addition, the other four regulators are required by
statute to have a central office presence to monitor and report to Congress regarding the
complaints they have received. This requirement does not apply to the NCUA. Since at least
1975, in order to meet statutory requirements, the FDIC, OTS, FRB, and OCC have each
established a central office staff and a centralized computer system to handle, monitor, and report
on their respective complaint and inquiry programs. However, most of the work required to
make the process work is performed by staff that is budgeted for and located at the regional or
district bank level of the organization. We also found that a significant portion--up to 50
percent--of the complaints and inquiries received by the four regulators represented regulatory or
compliance violation allegations.




                                                        15
